   October 14, 2004




Financial Management
DoD Antideficiency Act Reporting
and Disciplinary Process (D-2005-003)




                  Department of Defense
              Office of the Inspector General

                                    Constitution of
                                   the United States

      A Regular Statement of Account of the Receipts and Expenditures of all public
      Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ADA                   Antideficiency Act
ASN                   Assistant Secretary of the Navy
FM&C                  Financial Management and Comptroller
FMR                   Financial Management Regulation
OSD                   Office of the Secretary of Defense
                                 INSPECTOR     GENERAL
                                 DEPARTMENT OF DEFENSE
~~                                 400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704

~                                                                            October 14, 2004

     MEMORANDUM FOR UNDER SECRETARY DEFENSE (COMPTROLLER)/CHIEF
                      FINANCIAL OFFICER
                    DEPtITY GENERAL COUNSEL (FISCAL)
                    ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                      MANAGEMENT AND COMPTROLLER)
                    ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                      MANAGEMENT AND COMPTROLLER)
                    ASSIST ANT SECRETARY OF THE AIR FORCE
                      (FINANCIAL MANAGEMENT AND COMPTROLLER)
                    DEPUTY PRINCIPAL GENERAL COUNSEL OF THE AIR
                      FORCE

     SUBJECT: Report on DoD Antideficiency Act Reporting and Disciplinary Process
              (Report No. D~2005-003)

            Weare providing this report for review and comment. We considered comments
     nom the Office of the Under Secretary of Defense (Comptroller)/ChiefFinancial Officer.
     the Department of the Army. the Department of the Navy, and the Department of the Air
     Force when preparing the fmal report.
             DoD Directive 7650.3 requires that all recommendations be resolved promptly.
     The Office of the Under Secretary of Defense (Comptroller)/ChiefFinancial Officer
     comments were partially responsive. We request additional comments on
     Recommendations A.I and B.lc. The Assistant Secretary of the Navy for Financial
     Management comments were not responsive. We request additional comments on
     Recommendation A.3. As a result of management comments, we revised
     Recommendation B.2, which is directed to the Office of the Under Secretary of Defense
     (Comptroller)/ChiefFinancial Officer. and we redirected Recommendation A.2 to the
     Office of the Deputy General Counsel (Fiscal) and redirected Reconunendation A.5 to the
     Principal Deputy General Counsel of the Air Force. Therefore. we request that the
     respective offices provide comments on Recommendations A.I. A.2. A.3. A.5, and B.lc
     by December 13. 2004.
            If possible, please send management comments in electronic fonnat (Adobe
     Acrobat file only) to Audcolu@dodig.osd.miI. Copies of the management comments
     must contain the actual signature of the authorizing official. We cannot accept the
     I Signed / symbol in place of the actual signature. If you arrange to send classified
     comments electronically, they must be sent over the SECRET Internet Protocol Router
     Network (SIPRNET).
             Management comments should indicate concurrence or nonconcUtTencewith each
     applicable finding and recommendation. Comments should describe actions taken or
     planned in response to agreed-upon recommendations and provide the completion dates
     ofthe actions. State specific reasons for any nonconcurrence and propose alternative
     actions. if appropriate. Management should also comment on the material management
     control weaknesses discussed in Appendix A.
        We appleciate the courtesies extended to the staff: Questicma should be diMcted
to Mr. James L Komicb at (614) 751-1400 ext. 211 or Mr. MIlk Sfu'indy at (614) 751-
1400 ext.231. The tam mcmbcn an . Jisted iDsidethe back cover. See Appeudix B for
the RPOrt distribution.
                              By direction of the Deputy J:nspector Gau:n1 for AuditiDg:



                                      .~
                                       PaulJ.
                                     Assi
                                                      , CPA
                                                        Genc:ra1
                                                                 .

                                     Defense FiDancialAuditing
                                              Service
          Office of the Inspector General of the Department of Defense
                                                                            October 14, 2004
Report No. D-2005-003
   (Project No. D2004FJ-0003)

        DoD Antideficiency Act Reporting and Disciplinary Process

                                  Executive Summary

Who Should Read This Report and Why? Senior DoD managers who are responsible for
preventing or investigating Antideficiency Act (ADA) violations or for disciplining ADA
violators should read this report.

Background. The Office of the Under Secretary of Defense (Comptroller)/Chief Financial
Officer requested that we review the timeliness of the Defense Department’s violation reporting
and the appropriateness of the discipline administered for ADA violations. The ADA prohibits
Federal employees from spending the Government’s money in any way other than that directed
by Congress. Spending more money than Congress appropriates, or spending the money before
Congress appropriates it, violates the ADA. When this happens, the head of the agency where the
violation occurred must notify the President and the Congress. DoD Regulations require that
ADA violations be processed (investigated and reported) within 12 months of discovery.

Results. The Military Departments and the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer did not process ADA cases within 12 months. For the 42
cases reported in FY 2002 and FY 2003, the average time required to conduct the investigation
and report the ADA violation to the President and Congress was 49 months for the Army,
43 months for Navy, and 63 months for the Air Force. Case information should have been
processed more efficiently, and legal reviews took too long. (See Finding A for the detailed
recommendations.)

The Army and Air Force rendered appropriate disciplinary actions for ADA violations most of
the time. However, Navy management did not administer formal, written disciplinary actions in
most cases. There were 28 Navy ADA violation cases, in which 88 active persons were deemed
responsible for the violations. Navy managers chose not to discipline 29 individuals, verbally
counseled 31 individuals, and administered non-punitive written letters to 24 individuals. The
remaining 4 individuals received punitive written discipline. More definitive ADA violation
policy might have deterred some of these ADA violations, and more stringent requirements for
formal disciplinary action should deter future ADA violations. (See Finding B for the detailed
recommendations.)

Management Comments and Audit Response. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer, Director of Accounting and Finance Policy and Analysis,
and the Assistant Secretaries of the Military Departments (Financial Management and
Comptrollers), generally concurred with the recommendations or provided alternative actions in
response to the recommendations. Based on their responses, we redirected or revised several
recommendations and requested additional comments. (See the Finding sections for a discussion
of management comments and the Management Comments section for the complete text of the
comments.)
Table of Contents

Executive Summary                                                              i

Background                                                                    1

Objective                                                                     2

Findings
     A. Timeliness of Antideficiency Act Violation Reporting                   3
     B. Improving the Antideficiency Act Disciplinary Process                 12

Appendixes
     A. Scope and Methodology                                                 21
         Management Control Program Review                                    21
         Prior Coverage                                                       22
     B Report Distribution                                                    24

Management Comments
     Office of the Under Secretary of Defense (Comptroller)/Chief Financial
        Officer                                                               27
     Department of the Army                                                   32
     Department of the Navy                                                   33
     Department of the Air Force                                              37
Background
           The Antideficiency Act (ADA) prohibits Federal employees from entering into
           contracts that exceed the amount of funding appropriated for the year, making an
           obligation or disbursement in excess of an apportionment or agency regulations,
           or purchasing services and merchandise before appropriations are enacted. The
           Act is codified in Title 31 of the United States Code. The law requires the agency
           head to immediately report any ADA violations to the President and Congress.

           The Office of the Under Secretary of Defense (Comptroller)/Chief Financial
           Officer (the Defense Comptroller) requested that we review ADA reporting. The
           Defense Comptroller was concerned with the lengthy duration of violation
           investigations, and whether appropriate discipline was administered to violators.

           The ADA establishes penalties for violations. Specifically, 31 United States
           Code (U.S.C.) 1349, “Adverse Personnel Actions,” requires that violators of the
           Act be subject to appropriate administrative discipline including, when
           circumstances warrant, suspension of duty without pay or removal from office.
           Criminal penalties may be imposed when violations are committed knowingly
           and willfully. Title 5 U.S.C 1215, “Disciplinary Action,” provides the types of
           disciplinary actions that are appropriate when a provision of a law, rule, or
           regulation is violated. Specifically, part a(3) describes disciplinary action as
           removal, reduction in grade, debarment from Federal employment for up to
           5 years, suspension, reprimand, or a civil penalty up to $1,000.

           The DoD Financial Management Regulation (FMR) volume 14, “Administrative
           Control of Appropriations and Antideficiency Act Violations,” October 2002,
           provides timeframes for completing ADA investigations and general guidance on
           disciplinary actions. Specifically, the DoD FMR policy directs that:

               •   the total process for investigating and reporting potential violations take
                   no more than one year from the date of discovery;1

               •   discipline be determined through consultations involving the commander,
                   the investigative officer, the staff judge advocate, and other appropriate
                   authorities;

               •   ultimate responsibility for disciplining those responsible for ADA
                   violations rest with the appropriate commander or other official;

               •   appropriate administrative discipline may include written admonishment
                   or reprimand, reduction in grade, suspension from duty without pay, or
                   removal from office, and

               •   the disciplinary official acknowledge, in writing, that he or she
                   understands that a violation of the ADA is a violation of Federal statute;
                   that DoD is required to report the violation to the President and Congress,
                   even though a violation may not have been committed willfully or
1
    This provision remains unchanged from the 1995 version of the FMR.

                                                    1
            knowingly; and disciplinary action commensurate with the severity of the
            violation and other factors should be taken against the responsible
            individual.


Objective
    Our objective was to determine whether all appropriate actions were taken to
    ensure that ADA violation cases were processed timely and that actions taken
    reduced the recurrence of ADA violations. See Appendix A for a discussion of
    the scope and methodology, our review of the management control program, and
    prior coverage related to the objectives.




                                        2
                   A. Timeliness of Antideficiency Act
                      Violation Reporting
                   The Military Departments and the Office of the Defense Comptroller did
                   not process ADA cases within 12 months as stipulated by DoD
                   Regulations. For the 42 cases completed in FY 2002 and FY 20032, the
                   average time required to conduct an investigation and report the violation
                   results to the President and Congress was 49 months for the Army,
                   43 months for Navy, and 63 months for the Air Force. The Military
                   Departments and the Office of the Defense Comptroller did not process
                   ADA cases efficiently. Specifically, there were delays in:

                        •   processing case information through the normal chains of
                            command,

                        •   assigning a preliminary and formal investigator,

                        •   submitting completed cases to the Office of the Defense
                            Comptroller,

                        •   legal reviews, and

                        •   coordination of cases between the Office of the Defense
                            Comptroller and the Office of the Secretary of Defense (General
                            Counsel).

                   As a result, the Military Departments did not report ADA violations in
                   time to comply with the ADA, did not meet OSD goals, and wasted
                   resources.


Antideficiency Act Reporting Process
           The DoD FMR Volume 14, “Administrative Control of Funds and Antideficiency
           Act Violations,” allows the Military Departments 1 year to complete ADA
           violation cases. Once a potential ADA violation is identified, a preliminary
           review of the basic facts determines the probability of an actual violation. The
           DoD FMR directs that preliminary reviews be performed in a timely manner,
           usually within 90 days. If the preliminary review indicates that a violation
           probably occurred, the Military Department assigns an investigative officer to
           fully investigate all relevant information. When the formal investigation is
           complete, the Office of the Assistant Secretary (Financial Management and
           Comptroller) of the Military Department submits a summary report to the Office
           of the Defense Comptroller for review and approval. The Defense Comptroller
           submits ADA violation reports to the President, through the Director of the Office
           of Management and Budget, and to Congress.

2
    Includes 6 Army cases, 8 Air Force cases, and 28 Navy cases

                                                     3
Reporting ADA Violations to the President
     ADA reporting requirements establish a sense of urgency for reporting misuse of
     DoD appropriations and provide a mechanism for ensuring that funding violations
     are visible to the President and Congress. The Office of the Secretary of Defense
     (OSD) attempted to fulfill this requirement through the policies it established in
     the DoD FMR that require ADA cases to be completed within a year. However,
     the Military Departments fell significantly short of this requirement. Specifically,
     the Navy’s 43.1 months to complete ADA violation cases was the quickest of the
     three Military Departments, but still approached almost 4 years and was
     significantly beyond the standard established by the DoD FMR. Inefficient
     Military Department and OSD processes for overseeing and processing ADA data
     contributed to the length of time required to complete ADA cases.


Meeting Timeliness Goals
     In FYs 2002 and 2003, DoD completed and reported results on 42 ADA cases.
     There were 6 reported cases in the Army, 28 in the Navy, and 8 in the Air Force.
     Only two of the 28 Navy ADA cases were completed within 1 year. Table 1
     shows how long it took the Military Departments and OSD to complete the
     various phases of review.

      Table 1. Summary of Average Months to Report an ADA Violation

                                          Total      OSD            OSD
                Preliminary Formal        Service    Comptroller    Legal          Total
      Service   Stage       Stage         Time       Review         Review         Time

      Army               8.4       14.1       22.5           12.6          13.8        48.9

      Navy              12.3       21.6       33.9            2.7            7.0       43.1*

      Air
      Force             15.1       33.9       49.0            3.2         10.2         63.2*

      *Total time is based on ADA case records at the Military Departments and includes
      OSD data that does not fully match the timelines in the OSD records. The
      differences did not affect our results or conclusions.



     The amount of time spent performing the fact finding and summarization in the
     preliminary and formal phases was usually much less than the total amount of
     time necessary to complete the preliminary and formal phases of the ADA cases.
     Coordinating the information through several layers of command or legal review
     added months to the formal investigation phase while adding little to the final
     summary report. Additionally, the OSD review of ADA violations added many
     months to the cases that we reviewed. There was no documentation that

                                          4
explained why it took OSD so long to complete reviews, especially for the Army
cases. OSD personnel indicated that several of the Army cases required rewriting
to make the case clear and understandable to all reviewers and other interested
parties.

Although not specifically broken out in Table 1, documentation showed that
preliminary and formal investigators completed their reviews in an average of
7.7 months for the Army, 20.7 months for the Navy, and 10.9 months for the Air
Force. The time in the other stages was spent performing coordination functions
that inflated the time spent in the review and investigation phases, and gave the
appearance that more time was spent reviewing the facts of the cases than was
actually spent.

Coordination and Progression of Case Information. The Navy and the Air
Force preliminary reporting processes required several layers of command
review and coordination. The layers of review and coordination led to additional
delays with little value added in support of the conclusions in the cases.

Navy commands reporting potential violations prepared formal memorandums to
be sent to Assistant Secretary of the Navy (ASN) (Financial Management and
Comptroller) (FM&C). However, in some cases the memorandums went through
three levels of review before reaching ASN (FM&C), with each level of
coordination taking months before approval and submission to the next level.
One Navy case went through three levels of command review and was held
6 months before being forwarded to ASN (FM&C). In another case, a
memorandum was reported lost in the chain of command, and this delayed the
start of the formal investigation by 21 months.

In the Air Force, ADA case information was delayed at the Major Command or
lower levels by various command reviews. As an example, one Air Force formal
investigation was delayed by almost 9 months because the preliminary report was
held in a lower level review. There was no documentation indicating the reason
for the delay.

The major commands had no reason to alter or change any of the facts or
conclusions in the preliminary investigator’s report. Therefore, it would have
been more effective to provide the results of the preliminary investigation to the
Assistant Secretary level at the same time the commands received the results.

Assignment of the Preliminary and Formal Investigator. At times all three
Military Departments delayed assigning a preliminary or formal investigator. The
DoD FMR requires that the major command assign the preliminary investigator
relatively quickly after a potential violation is discovered. This appointment
should occur within 10 to 15 days. However, in some instances, the Major
Command did not assign a preliminary investigator for months after the potential
violation had been discovered. For example, the Navy took more than 2 months
to assign a preliminary investigator in 5 of the 28 cases. The Navy needed more
than 10 months to assign an investigator for one of the five cases. The Army
took more than 8 months to assign a preliminary investigator for two cases, and
took more than 16 months for one of these two cases. The Air Force took more


                                     5
than 2 months to start the preliminary investigation for three cases, and took more
than 17 months for two of the three cases.

In addition to delays assigning a preliminary investigator, the Navy and the Air
Force delayed assigning a formal investigator. In several cases, the Navy delayed
the appointment of the investigative officer by assigning an individual who retired
shortly after the appointment. This caused several months of unnecessary delay
before another official could be appointed.

The Air Force delayed several cases although the Office of the Assistant
Secretary of the Air Force had directed that the formal investigation be started.
One case was delayed by almost 10 months despite repeated requests from the
Assistant Secretary.

Assistant Secretary of the Army Reporting. For the six ADA cases the Army
completed and reported on in FYs 2002 and 2003, the Office of the Assistant
Secretary of the Army (FM&C) spent months reviewing case information before
submitting the cases to the Defense Comptroller. In accordance with the
DoD FMR, the Office of the Assistant Secretary of the Army (FM&C) is tasked
to oversee ADA case information and submit completed cases within a year. Part
of this requirement includes avoiding unnecessary delays. However, the available
case records indicate that the Office of the Assistant Secretary of the Army
(FM&C) averaged more than 8 months for each case review. However, the Army
records contained little evidence to support a reason for delaying submission of
the cases to Defense Comptroller. Additionally, Army records indicated that
actions by the Army General Counsel were not a factor in the delays. The
unexplained delays indicate a lack of proper oversight and assignment of a low
priority to the timeliness of the Army ADA reporting process.

Air Force Legal Reviews. For the eight Air Force ADA cases, the Air Force
legal staff performed an average of five legal reviews, which usually included at
least two lower-level (base and command level) legal opinions and the Secretary
of the Air Force General Counsel opinion. Frequently, the Air Force Office of
General Counsel overturned the lower-level opinions. According to the Secretary
of the Air Force Office of General Counsel, lower-level decisions were frequently
overturned because many of the base-level legal staff lacked expertise in fiscal
law. We did not determine how much time each lower-level legal review added
to the process because documentation was not available; but the Secretary of the
Air Force Office of General Counsel averaged almost 6 months to review a case,
with only one case being reviewed within 1 month, and one case taking more than
15 months.

The Air Force ADA records showed the preliminary and formal investigations
took an average of 10.9 months. Adding almost 6 months, on average, for the
headquarters-level legal review and opinion and at least two more lower-level
legal reviews and opinions seemed excessive and a waste of Air Force legal
resources. In our opinion, the Air Force can change their ADA legal review
process to reduce legal review time. Specifically, the Air Force can either
eliminate the lower-level legal reviews since higher-level legal offices often
overturn them, or allow the Secretary of the Air Force Office of General Counsel


                                     6
    to endorse accurate lower-level legal opinions. Fewer Air Force legal reviews
    and opinions would improve the timeliness of ADA reporting.

    Office of the Deputy General Counsel and Comptroller Reviews. For all three
    Military Departments, the Office of Deputy General Counsel (Fiscal) processing
    of ADA cases and the Defense Comptroller review and coordination was lengthy.
    On average, the OSD review took 26.4 months for the Army cases, 9.3 months for
    the Navy cases, and 13.4 months for the Air Force cases.

    OSD Comptroller records indicated that it took the Office of Deputy General
    Counsel (Fiscal) an average of 9 months to review the cases referred to it. In
    addition, the Office of the Defense Comptroller took an average of 12 months to
    coordinate Army cases, with a more acceptable—though still lengthy—time of
    3 months for the Navy and Air Force. Records were not available to determine
    why the OSD reviews were so lengthy. However, OSD personnel indicated that
    the Army cases were sometimes delayed to perform rewrites. OSD took too long
    to review ADA violations and Office of the Deputy General Counsel and
    Comptroller employees needed to process case information sooner.

    OSD took some action during the audit to improve the coordination of ADA case
    information. Specifically, on November 19, 2003, the Office of the Defense
    Comptroller issued a policy letter, “Processing of ADA Violation Cases,” that
    requires the Military Departments to submit ADA cases for OSD legal review
    prior to disciplining responsible officials. This policy was implemented to
    prevent instances in which the Office of the Deputy General Counsel disagrees
    that an ADA violation has occurred after a Military Department has administered
    punishment to the responsible official. Because the policy was not in effect when
    the FY 2002 and 2003 violations were processed, we could not determine whether
    it will improve the timeliness of OSD level review of ADA cases.


Summary
    If the Military Departments and OSD do not effectively address ADA violation
    processing inefficiencies, reports will continue to lag behind acceptable and
    achievable levels. Process improvements should include more efficient
    coordination of case information at all levels of review; fewer levels of legal
    review, especially for Air Force cases; and more timely review at the Assistant
    Secretary and OSD levels.


Recommendations, Management Comments, and Audit
  Response
    Redirected Recommendation. We revised recommendation A.1. to make it
    more clear. We redirected recommendation A.2. to the Office of the Deputy
    General Counsel (Fiscal) based on comments from the Office of the Under
    Secretary of Defense (Comptroller)/Chief Financial Officer. We also redirected
    recommendation A.5. based on comments from the Assistant Secretary of the Air
                                        7
Force (FM&C) that he has no authority over the Air Force Office of General
Counsel or the Air Force Office of Staff Judge Advocate.

A.1. We recommend that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer revise the DoD Financial Management
Regulation, Volume 14, “Administrative Control of Appropriations and
Antideficiency Act Violations,” October 2002, to require that the Military
Departments submit preliminary review and formal investigation reports
concurrently to the Office of the Assistant Secretary (Financial Management
and Comptroller) while the reports are going through the command chain.

OSD(C) Comments. The Director of Accounting and Finance Policy and
Analysis nonconcurred, stating that the fundamental structure and operation of the
Department of Defense is based on adherence to the chain-of-command. The
Director stated that it would be inappropriate and counterproductive for the OSD
Comptroller to direct that investigation reports bypass the chain of command.
She also stated that it would be more appropriate and productive for the OSD
Comptroller to recommend that the Military Departments use the results of this
report to review and revise their investigation reporting process to ensure
compliance with the Volume 14 timeframes.

Audit Response. We do not fully agree with the Director’s comments. We agree
that the Military Departments should review and revise their ADA investigative
reporting processes to improve the timeliness of reporting ADA violations.
However, the DoD FMR should be revised to move reports more efficiently
through the command chains. Our recommendation does not preclude the lower-
level and intermediate command chain from reviewing the ADA information. All
appropriate officials would still be notified of potential ADA violations
concurrently. These lower and interim offices were not refining the ADA
information so a notification is sufficient. Alerting the Offices of Financial
Management and Comptroller at the earliest opportunity will allow oversight
personnel to determine whether the ADA cases merit further processing and will
reduce processing time.

ADA processes are already in place within the Navy for the formal investigation
that are similar to our recommendation. Specifically, within the Navy many ADA
investigations are performed by personnel within the Office of Financial
Management and Comptroller. The FM&C personnel coordinate their results
with the Office of General Counsel and then provide them to disciplinary offices.
In effect, the Navy FM&C process prevents delays caused by transmitting
information through several command chains. We clarified our recommendation
to specify that the reports be submitted to the Military Department offices of
FM&C at the same time that the reports are moving through the command chain.
We request that the Director reconsider her comments and provide additional
comments on the final report.

Navy Comments. Although not required to comment, the Assistant Secretary of
the Navy (FM&C) disagreed with the recommendation related to the preliminary
process, stating that submitting the preliminary report through the chain of
command improves the quality of the report and the data provided. He also stated
that direct submission of preliminary reports would require formal return of the

                                    8
preliminary reports for additional information and would increase processing
time.

Audit Response. We disagree with the Navy comments. Within the Navy,
preliminary reports are typically prepared at the operating level where the
potential violation occurred. Formal investigative reports are prepared at the
Assistant Secretary of the Navy (FM&C) level in conjunction with Navy General
Counsel. Therefore, the formal investigations do not strictly follow the “chain of
command.” Within the Military Departments, changes to ADA case information
are generally not made by higher command levels. ADA reports submitted by the
Navy to OSD do not typically include significant changes made by major
commands. Quality improvements are normally made by Assistant Secretary
Financial Management and Comptroller staff. In general, long delays in Navy
Major Commands’ ADA reporting resulted from delayed assignment of an
investigative officer.

A.2. We recommend that the Office of the Deputy General Counsel (Fiscal)
establish policies to prioritize workloads so that ADA cases are reviewed and
completed more expediently. The policy should include, at a minimum,
target deadlines for completing legal reviews of ADA cases.

OSD(C) Comments. The Director, Accounting and Finance Policy and Analysis
concurred and stated that the Office of the Deputy General Counsel (Fiscal) has
implemented this recommendation by setting a goal to review cases within
1 week of transmission and to complete cases within 1 month. The Director stated
that the goal has been effectively implemented.

Audit Response. While the Director’s comments are responsive, we revised the
recommendation to direct it to the proper office and now request comments from
the Office of the Deputy General Counsel (Fiscal).

A.3. We recommend that the Assistant Secretaries of the Navy and Air Force
each issue a policy letter to lower level commands stressing the importance of
starting and completing preliminary ADA reviews and formal investigations
as soon as possible, and in accordance with the DoD Financial Management
Regulation. In particular, the Navy needs to ensure that the assigned
investigative officer is available to perform the investigation. The Air Force
needs to ensure that its Major Commands assign an Investigating Officer in
a reasonable amount of time.

Navy Comments. The Assistant Secretary nonconcurred stating that he has
already issued policy letters to lower-level commands stressing the importance of
completing the ADA investigations within the required timeframe. He stated that
improvements are being made, and that the Navy was the only Department to
complete an ADA within the 9 month timeframe.

Audit Response. Although the Assistant Secretary nonconcurred, we agree that
the Navy has issued policy letters in the past and improvements are pending. The
Navy was the only Military Department to complete an ADA investigation within
a 9 month timeframe.


                                    9
Air Force Comments. The Assistant Secretary of the Air Force concurred and
issued a memorandum to the major commands stressing the importance of
completing formal investigations on time and of assigning an investigative officer
within 15 business days after receipt of direction to begin the investigation.

A.4. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller) establish procedures that ensure the timely
review and processing of ADA cases. Specifically, establish deadlines for
submitting cases to the Defense Comptroller, and justify delays in submission
of the cases.

Management Comments. The Assistant Secretary of the Army (FM&C)
concurred and stated that five active measures to implement improvements have
already been taken including establishing deadlines for all delinquent cases and
reporting monthly status to OSD(C).

A.5. We recommend that the Principal Deputy General Counsel of the Air
Force direct that no more than one lower-level legal opinion be conducted in
ADA cases and allow Air Force Office of General Counsel staff to endorse
lower-level legal opinions.

Management Comments. The Assistant Secretary of the Air Force for Financial
Management and Comptroller stated that the authority to reduce legal opinions
rests within the Office of General Counsel of the Air Force. Therefore, we are
redirecting this recommendation. We request that the Principal Deputy General
Counsel of the Air Force provide comments.




                                    10
           B. Improving the Antideficiency Act
              Disciplinary Process
           The Army and Air Force rendered more formal disciplinary actions for
           ADA violations than did the Navy. In most cases, Navy supervisors did
           not administer formal written discipline. In the 28 cases, in which
           88 responsible personnel could have been disciplined, Navy disciplinary
           officers chose not to discipline 29 individuals, administered verbal
           discipline to 31 individuals, and administered non-punitive written letters
           to 24 individuals. The remaining four responsible individuals received
           formal written discipline. These conditions existed in the Navy because:

              •   Naval disciplinary, legal, and investigative personnel stated that
                  they considered many violations “technical” and without harm to
                  the Navy,

              •   Naval disciplinary officers had been named as ADA violators in
                  the same and similar cases,

              •   Naval disciplinary officers questioned the validity of the
                  investigative officers’ conclusions, and

              •   Naval disciplinary officers administered types of discipline neither
                  spelled out in nor consistent with the examples provided in the
                  United States Code.

           Without an increase in the Navy’s perception of the seriousness of
           Antideficiency Act violations, there is increased risk that personnel will
           misuse funds without threat of punishment; and the comparatively high
           number of ADA violations in the Navy could continue.


ADA Cases in the Army and Air Force
    For FYs 2002 and 2003, the Army and Air Force processed and reported a total of
    14 ADA violation cases, half as many as the Navy. For those 14 cases, the Army
    and Air Force named 25 individuals (still actively employed) responsible. Table
    2 shows a breakdown of the discipline administered by the Army and Air Force.




                                        11
                 Table 2. Army and Air Force Discipline

                                                Number of
                                                Active                    The data in
                 Type of Discipline             Individuals               Table 2
                 No Discipline                         7                  indicate that
                                                                          the Army and
                 Verbal Discipline                     1                  Air Force
                                                                          personnel
                 Non-Punitive Discipline               3                  recognize the
                                                                          seriousness of
                 Formal Discipline*                   14                  ADA
                                                                          violations and
                 Total                                25                  are inclined to
                                                                          administer
                 *Consists of written reprimand,                          formal
                 reassigned/removal from position,                        discipline
                 suspension, or unfavorable evaluation.                   (such as a
                                                                          written
                                                                          reprimand) to
    ADA violators.


ADA Cases in the Navy
    Identifying, Investigating, and Reporting Navy ADA Violations. Potential
    Navy ADA violations are identified through various sources including the DoD
    Hotline, DoD Inspector General audits, Naval Inspector General inquiries, and
    other internal and external reviews.

    The DoD FMR requires that the Office of the Assistant Secretary of the
    Navy (FM&C) be notified of potential ADA violations. DoD policy requires that
    the Navy command or activity assign a preliminary review officer to determine
    whether a violation has apparently occurred. If the preliminary review officer
    determines that it is apparent that a violation has occurred, a formal investigation
    is initiated. The Assistant Secretary of the Navy (FM&C) assigns the formal
    investigator. The purpose of the formal investigation is to determine the relevant
    facts and circumstances concerning the potential violation; and, if a violation has
    occurred, what caused it, what the corrective actions are, and who was
    responsible for the violation. If a violation has occurred, the investigative officer
    prepares a report of violation and coordinates the findings with the Assistant
    Secretary of the Navy (FM&C) legal counsel.

    Navy commanding officials are required to discipline those responsible for
    Antideficiency Act violations in accordance with 31 USC 1349 and DoD FMR
    Volume 14, chapter 9, “Disciplinary Actions,” October 2002.




                                         12
Navy Disciplinary Attitude
     Navy needed to improve its compliance with the disciplinary requirements of the
     Antideficiency Act. For completed ADA violation cases in FY 2002 and 2003,
     Navy supervisors responsible for administering discipline were reluctant to
     administer any type of formal discipline, even in cases of apparent abuse of funds.

     Active versus Retired Responsible Personnel. Of the 128 ADA violators
     named in the 28 Navy cases included in our review, 40 responsible personnel had
     retired prior to the Navy administering discipline for their ADA violations.
     Thirty-four of the 40 who retired were not disciplined.

     DoD policy does not preclude discipline of retired ADA violators if they are still
     employed by DoD. Insufficient data were available to determine how many of the
     40 personnel were still employed by DoD at the time the Navy identified them as
     responsible officials. Therefore, our analysis focused on responsible officials
     who were still working for the Navy at the time the Navy cases were completed.
     Table 3 shows how Navy disciplinary officers disciplined 88 ADA violators who
     were still Navy employees.

                  Table 3. Breakout of Navy Discipline

                                                 Number of
                                                 Active
                  Type of Discipline             Individuals
                  No Discipline                        29

                  Verbal Discipline                    31

                  Non-Punitive Discipline              24
                  Formal Discipline*                    4
                  Total                                88

                  *Consists of written reprimand or
                  reassignment/removal from position.



             In two Navy cases, the records showed the investigative officer had
     determined that there was evidence that ADA violators had acted knowingly and
     willfully, and referred the cases to the appropriate state or Federal Attorney
     General’s office for prosecution. Despite conclusions that the responsible
     individuals had knowingly and willfully violated the ADA, the strongest
     discipline issued by the disciplinary officers for these cases was a written letter of
     caution.

            In two other instances, the records showed that the investigative officer
     concluded that high-level Navy managers granted waivers to use non-


                                           13
     procurement funds to purchase general purpose vehicles such as trucks, vans, and
     sport utility vehicles. Through the use of waivers, Navy management was able to
     inappropriately authorize the use of Operation and Maintenance; Family Housing;
     and Research, Development, Test, and Evaluation funds to purchase 94 vehicles.
     Vehicles are normally funded with Other Procurement funds. Despite this
     obvious misuse of Navy funds, the strongest discipline administered by
     disciplinary officers in these cases was verbal counseling.

              In another case, the investigative officer concluded that Naval Officers
     inappropriately designated portions of officers’ quarters, including their primary
     residence, as “common areas.” Inappropriately designating officer quarters as
     common areas allowed naval officers to spend Navy Operation and Maintenance
     funds that exceeded Congressionally determined levels. In this case, it was very
     apparent that the reason for designating part of the officers’ quarters as common
     areas was to avoid the Congressional spending limit. Despite relatively
     straightforward attempts to circumvent legal spending limits, disciplinary officers
     in this situation did not discipline the 16 active duty violators, in part because the
     Chief of Naval Operations sent a letter to the Naval IG stating that no discipline
     was warranted for all those named responsible.

             In response to this case, the Assistant Secretary of the Navy (Financial
     Management and Comptroller) senior civilian official sent a memo to the DoD
     Comptroller stating that although the IG DoD report had identified numerous
     individuals who made obligations by placing contracts or authorized obligations
     by providing funds, it was clear that the individuals were not solely responsible.
     The official also stated that the ADA violation occurred because the Navy has a
     culture of getting the job done using the information at hand and that the culture
     permeates the shore establishment.


Recognition of Reported Violations
     Naval disciplinary officers were reluctant to administer appropriate administrative
     discipline for several cultural reasons.

     Violations Perceived as Technical. In 7 of the 28 Navy cases, either the
     disciplinary officer or a member of legal counsel stated that the violation was
     technical, minor, or not harmful. For example,

        •   two disciplinary officers in two different cases noted that “there was no
            actual deficiency, nor did the Government suffer any harm.”

        •   as part of the procedural corrections, the Deputy Under Secretary of the
            Navy issued a memorandum concerning the requirement to notify
            Congress of a decision to contract for a cost study. In this memorandum,
            he states, “These good intentioned, but incorrect actions, resulted in
            technical Anti-Deficiency Act violations.”

        •   a legal advisor indicated that “the nature of the violation was exceedingly
            technical and that the violation apparently did not involve any gross


                                           14
       negligence, malfeasance or incompetence… nor was the violation
       apparently willful or knowing.”

These statements show a pattern of rationalizations in which disciplinary officers
appear to conclude that the ADA violations were insignificant and therefore
discipline was not warranted.

Responsible Officials and Disciplinary Officers. Naval disciplinary officers
have been named as responsible parties in the same and similar cases. For
example, in the case in which the Navy officer granted a waiver to permit non-
procurement funds to be used to purchase vehicles, the disciplinary officer was
also named as a responsible official for the violation. The disciplinary officer, a
Commanding Officer, decided that no discipline was warranted for the
responsible official, a retired Comptroller.

Responsible officials were also disciplinary officers in a case where Navy
personnel used family housing construction funds before the required
Congressional notification occurred. For administrative convenience, and to
simplify his investigation process, the investigating officer separated the violation
into several ADA cases. Although the cases were investigated separately, they
were linked in that the same personnel were involved. However, a responsible
official from one of these cases was the disciplinary officer in another of the
related cases.

The two examples clearly demonstrate a conflict of interest in the Navy ADA
disciplinary process that prevents the likelihood of appropriate administrative
discipline. Additional oversight to prevent future instances is needed.

Accepting Investigative Officer Conclusions. Naval disciplinary officers
questioned the validity of the investigative officers’ conclusions. In many
instances, disciplinary officers disagreed with and were reluctant to accept the
findings of investigative officers. For example,

   •   The Commander, Naval Facilities Engineering Command prepared an
       18 page document disputing the investigative officer’s finding.
       Specifically, he stated, “the investigator’s own findings compel the logical
       and necessary result that a finding of responsibility lies not with those
       individuals charged with following incorrect operating guidance, but with
       those individuals charged with responsibility for creating, providing and
       updating, that erroneous guidance.” One active individual was not
       disciplined, and the other received verbal counseling.

   •   One disciplinary official explained his decision to not discipline a
       responsible official “it appears that [deleted] has been identified as a
       responsible official in error, and the actual cause of any potential ADA
       violation may rest elsewhere.” He added, “If there was an ADA violation,
       there is not enough information in the Investigative Report to establish
       that Third Fleet can be held responsible.” He also added, “even if the
       actions of Third Fleet contributed to an ADA violation, Third Fleet can
       not be held responsible for it. By not taking immediate, appropriate



                                     15
       action, the COMPACFLT comptroller staff may actually be responsible
       for any ADA violation.” The responsible official received no discipline.

   •   A responsible official stated that he believed it unfair to hold the
       installation commander responsible for resulting shortfalls, particularly
       where those shortfalls were inconclusive, and at best very minor. His
       disciplinary officer agreed with the sentiment and stated that “as
       commander of the major base, …[he] held ultimate responsibility for over
       $100M in yearly funds, against which the amount of the violation was
       $8K. As a practical matter, given the size and complexity of this base’s
       operations, the Commander must pass management of these funds to his
       staff, and cannot be aware of all of the thousands of minor obligations and
       transactions which occur on his base.” The Commander was not
       disciplined.

Crafting Different Types of Discipline. Naval disciplinary officers
administered discipline not specifically spelled out in, or consistent with, the
examples in the United States Code. Examples of disciplinary actions in the
United States Code are very limited. The lowest form of administrative discipline
suggested in 5 U.S.C. 1215 “Disciplinary Action” is a reprimand. However, in
many FY 2002 and 2003 completed cases, Navy disciplinary officers determined
that verbal counseling or non-punitive written counseling were appropriate
disciplinary measures. In 24 of 28 cases, the responsible official received no
more than verbal or non-punitive written counseling. These disciplinary actions,
in particular the verbal counseling, are informal and appear to be discipline that
could occur in the normal course of daily operations. As a result, when Navy
disciplinary officers administered verbal and other non-punitive types of
discipline for the misuse of funds, it is questionable whether the discipline was
appropriate.

        Consistency of ADA Disciplinary Policies. The DoD implementing
policies for disciplining responsible officials for ADA violations may have
contributed to the lack of formal discipline. Although the ADA clauses in the
United States Code are not intended to be all inclusive, they provide mostly
formal administrative discipline. Specifically, 31 U.S.C. 1349, “Adverse
Personnel Actions,” requires that violators of the ADA be subject to appropriate
administrative discipline including, when circumstances warrant, suspension of
duty without pay or removal from office. In addition, 5 U.S.C. 1215 part a(3)
describes disciplinary action as removal, reduction in grade, debarment from
Federal employment for a period up to five years, suspension, reprimand, or an
assessment of a civil penalty up to $1,000.

        The DoD FMR Volume 14, “Administrative Control of Appropriations,”
October 2002, implements the ADA disciplinary requirements of the United
States Code and provides examples of disciplinary measures that may be taken for
ADA violations. In addition to the types of discipline listed in the United States
Code, the DoD policy includes written admonishment as a type of administrative
discipline. Therefore the DoD FMR policy includes an additional type of
discipline considered to be acceptable for ADA violations. Further, DoD
Directive 7200.1, “Administrative Control of Appropriations” May 4, 1995,
expands the types of administrative discipline for ADA violations beyond the


                                    16
    FMR. The DoD Directive includes admonishment and reprimand as appropriate
    administrative discipline but does not specifically require that these types of
    discipline be written. These inconsistent DoD implementing policies may have
    directly contributed to the Navy practice of administering verbal and non-punitive
    discipline instead of the more formal types presented in the United States Code.

            However, the inconsistency in the DoD FMR and DoD Directive ADA
    disciplinary policy does not explain the high number of instances in which Navy
    disciplinary officers administered no discipline, which is more reflective of the
    Navy practice of considering ADA violations as minor or technical.

    Need for Change. Unless the Navy changes its cultural perception of the
    seriousness of ADA violations, Navy personnel will continue to perceive a low
    level of risk if they abuse Navy funds because there will be little likelihood of
    discipline. Without cultural change, the high number of Antideficiency Act
    violations in the Navy will continue.


Management Comments on the Finding and Audit Response
    OSD(C) Comments. The Director of Accounting and Finance Policy and
    Analysis in the Office of the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer stated that her office takes the requirements of the ADA
    seriously and recognizes the seriousness of possible violations. However, the
    Director questioned the applicability of Title 5 USC 1215 to ADA cases and
    believed that it was irrelevant to any disciplinary or administrative actions taken
    in response to ADA violations.

    Audit Response. We agree that the Office of the Under Secretary of Defense
    takes ADA violations very seriously. As discussed in the Finding, examples and
    definitions of administrative discipline in the United States Code are very limited.
    We provided a reference to Title 5 USC 1215 to provide available examples of
    discipline provided in Federal policy. The reference to Title 5 USC 1215 was not
    provided to suggest that it represents authoritative guidance related to the ADA.
    In contrast, it was provided to demonstrate the types of discipline provided for in
    the United States Code.

    Navy Comments. The Assistant Secretary of the Navy (FM&C) stated that the
    Navy considers ADA violations a serious matter and that three cases that the
    Navy determined were violations were subsequently overturned by DoD General
    Counsel. He advised that the Navy is bound by the decision of its supervisors and
    managers with respect to the proper level of discipline. He also stated that the
    Navy managers are bound by law and precedent to consider whether a violation is
    technical in nature and weigh its harm to the agency.

    Audit Response. We acknowledge that Navy top management takes ADA
    violations seriously. However, the discipline records for FY 2002 and 2003
    indicate that ADA violators in the Navy rarely received more than some type of
    verbal discipline, even in situations where the abuse was overt. We also agree
    that the OSD and Navy Offices of General Counsel consider the Department


                                         17
    bound by the disciplinary decision of the violator’s immediate supervisor.
    However, in many cases, it was questionable whether the supervisor properly
    considered the investigative officer’s conclusions when deciding the discipline to
    be administered. In these instances, changes in DoD policy are needed to give
    proper weight to conclusions reached by investigative officers.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. We revised recommendation B.2. based on
    comments from the Office of the Under Secretary (Comptroller)/Chief Financial
    Officer to clarify that discipline should always be administered to meet the intent
    of the ADA. We also revised the recommendation to address concerns by the
    Director of Accounting and Finance Policy and Analysis that requiring formal,
    written ADA discipline would be legally objectionable. For the full text of
    management comments, see the management comments section.

    B.1. We recommend that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer revise the DoD Financial Management
    Regulation Volume 14, “Administrative Control of Appropriations and
    Antideficiency Act Violations” to:

           a. Require that disciplinary officers acknowledge, in writing, that
    ADA violations are a misuse of DoD funds even though the misuse may not
    have been knowing or willful and despite whether the disciplinary officer
    considers the misuse of funds harmful to the Navy.

    OSD(C) Comments. The Director, Accounting and Finance Policy and Analysis,
    concurred with the recommendation and stated that, if implemented, it would
    apply to all Military Departments.

            b. Require that the Military Department Offices of Financial
    Management and Comptroller verify the independence of disciplinary
    officers before disciplinary officers are chosen to review cases and administer
    discipline,

    OSD(C) Comments. The Director, Accounting and Finance Policy and Analysis
    concurred with the recommendation and stated that the DoD FMR Volume 14,
    Chapter 9 will be updated to clearly state that personnel implicated in an ADA
    violation are ineligible to administer discipline. The Director also stated that the
    Military Departments will be instructed to notify their commands to appoint
    disciplinary officers whose independence is not impaired.

            c. Require that Military Department Offices of Assistant Secretary
    for Financial Management and Comptroller refuse to accept disciplinary
    officers’ conclusions that investigative officers’ findings are invalid, and
    direct that such cases be elevated to higher or alternative chains of command
    until resolved.



                                         18
OSD(C) Comments. The Director, Accounting and Finance Policy and Analysis,
nonconcurred, stating that the investigating officer’s role is to gather facts and the
disciplinary officer’s responsibility is to make a conclusion based on the facts.
The Director also stated that commanders and supervisors, with the assistance of
counsel, determine existence of ADA violations and whether or not a violation
was knowing and willful. She also indicated that such a recommendation should
reflect the fact that the disciplinary officer should only discount the investigative
officer’s findings based on other verifiable and supporting facts. The Director
further stated that OSD(C) compliance with this recommendation would raise the
appearance of improper command influence and would be subject to criticism and
questioning. Lastly, she stated that compliance with the recommendation may be
considered a prohibited personnel practice.

Audit Response. The Director’s comments are not responsive. We agree that
supervisors and commanders should be able to discount investigative officer
conclusions when other facts are available to refute them. However, the Navy
ADA cases in which commanders did not accept the facts and conclusions of the
investigative officer had the effect of voiding the investigative officer’s work with
little justification. Therefore, the addition of a policy to address these
circumstances is warranted. Another independent level of review of the
commander’s decision on discipline would reduce the appearance that the
commanding officer had a preconceived notion of appropriate discipline (or no
need to administer discipline) without regard to the findings and conclusions of
the investigative officer.

Additionally, while commanders and supervisors are involved in the ADA
investigation process, they do not ultimately make the final decision about
whether or not an ADA violation occurred. This decision is the responsibility of
the Office of the General Counsel (Fiscal). In many instances within the Navy,
disciplinary officers were reluctant to agree with the investigating officer’s
conclusions but did not offer other facts to support a different conclusion.
Instead, disciplinary officers justified their decision not to administer discipline
through rationalizations such as the conclusion that violations were “technical”
and resulted in no harm to the Navy, even though the subject cases were evident
examples of abuse. We request that the Director reconsider her comments and
provide additional comments to the final report.

B.2. We recommend that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer advise the Military Departments to
review the results of this report when considering discipline for ADA
violations and administer discipline that is in accordance with the
Antideficiency Act.

Management Comments. The Director of Accounting and Finance Policy and
Analysis stated that this report would be useful in ensuring that discipline would
be administered to meet the intent of the ADA. We revised the draft
recommendation to address her concern about requiring that ADA discipline be in
writing.




                                     19
Appendix A. Scope and Methodology
    We reviewed Army, Navy, and Air Force ADA cases closed in FYs 2002
    and 2003. We considered the case closed when OSD dated the transmittal
    memorandum to the President and Congress, or made the determination that there
    was no violation of the Antideficiency Act. Specifically, we reviewed
    six reported ADA violations and four no violation findings for the Army;
    28 reported ADA violations and three no violations for the Navy; and
    eight reported ADA violations and six no violation findings for the Air Force.
    We reviewed when the violation was discovered, when the investigation began,
    when it was sent to OSD, and when it was sent to OMB, Congress, and the
    President. We also determined in which DoD activity the violation occurred, who
    was named responsible, how they were disciplined, and what corrective actions
    were taken.

    We analyzed the time frames of the investigations and the consistency and
    adequacy of the disciplinary processes. We interviewed Army, Navy, Air Force,
    and OSD personnel involved in the coordination and submission of the cases,
    along with the respective legal counsel. We determined whether the ADA cases
    were completed in accordance with the DoD FMR Volume 14, “Administrative
    Control of Appropriations and Antideficiency Act Violations,” October 2002,
    DoD Directive 7200.1, “Administrative Control of Appropriations” May 4, 1995,
    and Title 31 of the United States Code.

    Our scope was limited in that we could not locate all information in all Military
    Department ADA files. In some instances, we could not determine when the
    memos were received based on the available data. As a result, we used the best
    available data to perform our analysis. Many of the dates we used in our analysis
    were based on memo dates, and referenced dates in other documents.

    We performed this audit from October 2003 through April 2004 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Infrastructure Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.



                                       20
    Scope of the Review of the Management Control Program. We reviewed the
    Office of the Secretary of Defense (Comptroller)/Chief Financial Officer and
    Military Department Offices of Financial Management and Comptroller
    management controls over processing Antideficiency Act cases and disciplining
    those responsible for Antideficiency Act violations. We reviewed the DoD
    Financial Management Regulations and Directives in place for ensuring
    compliance with the requirements of the Antideficiency Act as they relate to
    timeliness of violation reports and administering discipline. We also reviewed the
    adequacy of management’s self-evaluation of those controls.

    Adequacy of Management Controls. We identified a management control
    weakness for the Office of the Secretary of Defense (Comptroller)/Chief
    Financial Officer and the Military Departments and an additional weakness for
    the Department of the Navy, as defined by DoD Instruction 5010.40. The
    Comptroller and Military Department management controls for processing
    Antideficiency Act violation cases were not adequate to ensure that violations
    were researched and reported timely and efficiently. In addition, the Department
    of the Navy management controls for administering appropriate discipline for
    Antideficiency Act violations did not meet the intent of the Antideficiency Act in
    several abusive instances. Recommendations A.1, A.2, A.3, A.4, A.5, B.1, and
    B.2, if implemented, will correct the identified weaknesses and could result in
    reduced cases of Antideficiency Act violations. A copy of the report will be
    provided to the senior official responsible for management controls in the Office
    of the Secretary of Defense (Comptroller)/Chief Financial Officer and the
    Military Department Offices of Financial Management and Comptroller.

    Adequacy of Management’s Self-Evaluation. The Office of the Secretary of
    Defense (Comptroller)/Chief Financial Officer and the Military Departments
    identified the timely reporting of Antideficiency Act violations as part of an
    assessable unit and were aware of the weakness identified by the audit; however,
    DoD officials did not report the weakness in their annual statements of assurance
    because they did not consider it important enough to report to higher
    management. The Department of the Navy identified administering discipline as
    part of an assessable unit. However, in its evaluation, Navy officials did not
    identify the specific management control weakness identified by the audit because
    the evaluation covered a broader area.


Prior Coverage
    During the past 5 years, the Naval Audit Service has issued one report related to
    the timeliness and discipline of ADA cases. Restricted access to Naval Audit
    Service reports with Internet domains of mil, gao.gov, house.gov, and senate.gov.
    can be accessed over the Internet at http://www.hq.navy.mil/navalaudit/.

    Naval Audit Service Report No. N2003-0077, Department of the Navy Review
    Process for Potential Antideficiency Act Violations, August 26, 2003.




                                        21
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Office of the Deputy General Counsel (Fiscal)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Deputy Principal General Counsel

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont.)

House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        23
Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer
Comments

                         OF'FICE       OF THE UNDER     SECRETARY     OF' DEFENSE
                                             1100 DEFEN$E PENTAGON
                                           WASHINGTON, DC 2.0301-1100



   COMPTROLLER

                                                                                                   AUG 2 4 2004

         MEMORANDUM              FOR PROGRAM DIRECTOR, DEFENSE FINANCIAL AUDIT SERVICE,
                                       OFFICE OF INSPECTOR GENERAL, DEPARTMENT OF
                                       DEFENSE

         SUBJECT:        Draft Report on Department of Defense (DoD) Antideficiency Act (ADA)
                         Reporting and Disciplinary Process (Project No. D2004FJ-0003)


                  This is in response    to yourdraf\      report of May 17, 2004, provided         to Ibis office fur review
         and comment.       I appreciate    your efforts to complete this audit at our request.           The Office of the
         Under Secretary      of Defense (Comptrolter)          (OUSD(C»       and the Military Departments         take
         seriously the requirements        in the ADA and recognize          the setiousnesa    of possible violations.     Our
         comments      on the draft report follow, and our detailed responses             to the recommendations
         contained    in the draft report are attached.        We request that you reconsider         your recommendations
         and reCQCus them on OUSD(C)             tontinuing     to partner witb tbe Military Departments          to use the
         results of this report to review and reconsider           necessary    changes to the ADA investigation
         process.

                 Upon review     of the draft report,     we identified   an inconsistenty     in the "Department      of
         Defense Financial    Management      Regulation"    ("DoDFMR"),     Volume 14 regarding     the time fame
         in whicl1 ADA violation    investigations     are completed.   In some places the 12-month time frame
         includes the preliminary   investigation    and in others the time frame begins the date the formal
         investigating officer is assigned.     The draft report indicates the preliminary  investigation   was
         included ill yoUr lime measuremellis.            It is our intent that the period for the preliminary
         investigation  should not be included          in the time frame in which ADA violation         investigations     are
         to be completed.   Wc will update the "DoDFMR"     to elin1instc Ibis inconsistency                  and clearly
         slate that the 12-month time &ame begins when the formal investigating       officer               is assigned.   In
         addition, we will include guidance regarding a proposed    timeline fur completing                  the preliminary
         investigations.

                Althougb  specific disciplinary statutes are not cited in the report recommendations,    the
         report does not address all applicable  ADA disciplinary     statutes and includes one that does not
         apply to ADA violations.    Both Title 31, United States Code (USC), section 1349, whicb is
         mentioned    in the report, and Title 31, use,    section 1518, which is not mentioned     in the repon,
         state that discipline  in response to an ADA violation is to be "appropriate    discipline    including,
         when circumstances      warrant, suspension    from duty without payor removal from office."          Title
         5 USC 1215, wbich is cited in th.c report, is only applicable   to Merit Systems Protection     Board
         prohibited  personnel   practice cases. Therefore,  any ponisbments    mentioned in that sbltutc are
         irrelevant to any disciplinary   or administrative actions taken in response to ADA violations.




                                                                   25
Final Report
 Reference




Revised                In the course of your audit work, you examined        the management    controls over processing
Appendix A     ADA eases. We request !hat you reconsider         that the finding is ~ material management     control
               weakness    for the OUSD(C)     and the Military Departments      because there are not ~uate
               controls to ensure that violations   were researched    and reported timely and efficiently.   My office
               has made      significant   progress   in completing   ADA       investigations   by partnering   with the Military
               Depanments     to complete their investigations more timely. The "DoDFMR"          Volume 14 requires
               the Military Departments   to report monthly on the status oftheir open ADA investig.tions.
               OUSD(C)     reviews those reports to determine  if the investigations are progressing   in a positive
               manner.     If an investigation   is delayed or otherwise   impeded, we provide additional   guidance and
               assistance.    In fiscal year (FY) 200 I, we star1ed a financial management     metric program and
               ADA violations       are one of the items measurod     on a monthly basis. This executive  level monthly
               review ensures that ADAs continue to remain a priority for the Military Departments.            Because
               of this focused oversight,  the Department completed  and reported to Congress    and the President
               42 violations  in FYs 2002 and 2003 which were more than the 40 violations     reported in FYs
               1<;97 through 2001 combined.     Our goats tor FY 2004 are to complete all ADA eases that were
               over 12 months old as of October I, 2(0), and to complete    aU subsequent  investigations  within
               the 12-month    time frame.

                      In early 2004 the Assistant Secretary    of the Army (Financial  Management  and
               Comptroller)   (ASA(FM&C»       tasked all its Commands    to report on open ADA investigations                        and
               their progress during quarterly    Army-wide    Joint Reconciliation     Program           Updates.   Any suspense
               not met must be explained     in detail with specific timelines    for corrective          action.  In addition the
               ASA(   FM&C)         is worlWlg   monlhly    with the major      ColJllJUll1da to di~\I$& Q\ltalalKling        iH\IC& amt
               address barriers preventing  the ASA(FM&C)      from closing old investigations. The ASA{FM&C)
               has submitted   IS ADA violations  since January 2004, which is more than were submitted   in
               FYs 2001 through 2003 combined.

                      My point of contact         is Ms. Becky    Allen.   She (:;III be contacted    by telephone       at
               703-697-071 g or emaillitbeckv.al1en@osttmil




                                                       ~~~MCKaY
                                           Director, Accounting and Finance l'olic                   Analysis
               Attachment:
               As stated

               ce: ASA{FM&C)
                   ASN(FM&C)
                   SAFIFM




                                                                           26
                                                                                                                           Final Report
                                                                                                                            Reference




                                 DRAFT REPORT DATED MAY 17,2004
                               IG, DOD PROJECT NUMBER D2004FJ"()()()3

                 "DoD     Antideficiency     Act (ADA)     Reporting      and Disciplinary   Process"



RECOMMENDA              nON    A. I: The la. DoD recommended    that the Under Secretary of Defense
(ComptroUer)/Chief        Financial Officer revise the DoD Financial Management     Regulation,
Volume 14, "Administrative          Control of Appropriations   and Antideficiency      Act Violation,"
October 2002, to require that the Military Departments         sobmitpreliminary       review and formal
investigation     reports to the Office of the Assistant Secretary (Financial      Management      and
Comptroller)       at the time they are completed   instead of waiting for the report to filter through the
command       chain.

USD(C)      RESPONSE:         Nonconcur.      We agree that coordinating         and submitting   the report
between     non-value    added layers bas a negative impact on the timeliness   of the investigation
reports.    However,     the fundamental  structure and operation of the Department    of Defense is
based on adherence       to the "chain of command"        and must be fotlowed.   ADA cases arc no
different from any other serious matter requiring review from the level at which they arise to the
level to which they must go in the chain of command.             Each levet in the chsin is responsible    for a
lower level and accountable        to al! higher levels. It would be singularly    inappropriate      and
counterproductive      for the USD(C) to direct that investigation      reports bypass chain of command.
It would be more appropriate         and productive    for the USD(C) to recommend       that the Military
Departments      use the results of this report to review and revise their investigation        reporting
process    to ensure    compliance      with the Volume    14 timeframes.


RECOMMENDA nON A.2: The la, DoD recommended that the Office of the Under Secretary
                                                                                                                           Redirected
of Defense (General Counsel) establish policies to prioritize workload so that ADA cases are
reviewed and completed more expediently. The policy should include at a minimum. target
deadlines for completing legal reviews of ADA cases.

USD(C)       RESPONSE:        Concur.      This recommendation         should   have been addressed     to the Office
of the Deputy Generat Counsel (Fiscal) (ODGC(F».        There is no Office of the Under Secretary
of Defense (General Counsel).    The substance of this recommendation     was implemented    by the
ODGC(F).     The ODGC(F)    established  a SQal of completing  cases in, at most, one month., to
ensure     that cases are reviewed    and completed       expediently.   Their basic objective   is to clear cases
within     one week after transmittal    for review.      Recent experience    shows this is being adhered to.

 RECOMMENDATION             8.1: The IG, DoD recommended      that the Under Secretary of Defense
 (Comptroller)/Chief  Financial Officer revise the DoD Financial Management       Regulation,
 Volume 14, "Administrative      Control of Appropriations and Antideficiency  Act Violation to:

 A. Requi.re that disciplinary   officers acknowledge,    in writing, that ADA violations are a misuse
 of DoD funds even though the misuse may not have been knowing or willful and despite whether
 the disciplinary officer considers    the misuse of funds harmful to the Navy.



                                                                                                               Allaehmem




                                                           27
Final Report
 Reference




               US[)(c} RESPONSE: Concur. This recommendation.                               if implemented. would apply to all
               disciplinary officers, oot just those in the Navy.

               B. Require that the Military Department     Offices of Financial Management                          and Comptroller
               verify the independence   of disciplinary officers before disciplinary officers                      arc chosen to review
               cases and administer      discipline.

               US[)(C} RESPONSE:         Concur.  We will update Volume 14, Chapter 9 to clearly state that
               personnel   implicated  in an ADA violation are ineligible to administer         discipline. We will also
               indicate that the function of an investigating     officer is to determine    the facts upon which
               appropriate   decisions concerning  administrative      and disciplinary   actions can be made.
               Administration      of discipline    is a command           or supervisory      function   and responsibility    inherent   in
               the office or position held by those commanding       or supervising    thQse t~flonsible    for ADA
               violations.  Accordingly,   we will instruct the Military Department       Offices of Financial
               Management     and Comptroller   to notify their commands      to appoint disciplinary    officers whose
               individual    independence       is not impaired      relative    to the ADA violation         assigned.

               C. Require that Military Department       Offices of Assistant Secretary  forPinanciai      Management
               and Comptroller    refuse to accept disciplinary  officer's conclusions  that investigative     officers'
               findings are invalid, and direct that such cases be elevated to higher or alternative       chains of
               comman<i      until resolved.

               pSD(P        RESPONSE:          Nonconcur.       The investigating       officer's     role is to gather   the facts and the
               disciplinary  officer's   responaibility is to make a ~on~lu5ion basc<i Qn the facts. The
               determination     nf whether or not there is a violation of the ADA or whether or not it was knowing
               or willful is ultimately   one for commanders      and supervisors,   with the assistance     of counsel, to
               detennine.    The recommendation        should reflect the fact that the disciplinary   officer should only
               discount the investigative    officer's   findings based on other supporting      and verifiable   facts which
               should be reported to the Military Department         Offices of Assistant SecrClary for Financial
               Management        and Comptroller.           Furthermore,      "no violation"        cases are reviewed    by this Office
               an<i the ODGqF)          for a determination      of whether the "no violation"      finding is correct.   If the "no
               violation"   finding is incorrect the case is returned to the originating           military department      for
               reporting as an ADA violation           and other appropriate      action, including taking appropriate
               disciplinary    actions.     As for disciplinary     actions, compliance     with the recommendation       would
               raise the appearance        of improper command          influence and. would, therefore, be subject to
               question and potential criticism.          Depending       upon the cireumstances,     compliance    in some cases
               might even be a prohibited          personnel    practice.


Revised         RECOMMENDATION                 B.2: The IG, DoD recommended          that the Under SecrClary of Defense
                (Comptroller/CFO)        revise DoD Directive      7200.1, "Administrative     Control of Appropriations,"
                November      21,2003,     paragraph  4.5, to clarify that admunishments       and reprimands    should be
                written as provided      in the DoDFMR      and intended by examples       in the Antideficiency    Act clauses.

                USD(C) RESPONSE: Nonconcur. It would be more appropriate and productive for the USD(C)
                to recommend that the Military Departments use the results of this report to review and
                reconsider their processes for administering discipline for ADA violations. The examples given

                                                                                                                                    Attachment




                                                                                28
in the DoD Directive and the ADA's disciplinary statutes are illustrative; they are not exclusive.
Both written and oral admonishments  and reprimands fall within the purview of appropriate
disciplinary measures. Oral admonishments and reprimands are proper under the Uniform Code
of Military Justice, with respect to military personnel, and under the so-called "Douglas Factors,"
with respect to administrative and disciplinary actions against civilian personnel. To require a
punishment to be written would bl!' to deprive a commander or supervisor ofthcir command and
supervisory responsibilities and authorities. Therefore, implementation of this recommendation
would   result   in improper   command   influence   and, would,   therefore,   be Il!'gally objectionable.




                                                                                                          Allal:hment




                                                      29
Department of the Army Comments



                                           DEPARTMENT             OF THE ARMY
                                    OFFICE OF THE ASSISTANT     SECRETARY     OF THE ARMY
                                        FINANCIAl.   MANAGEMENT   AND COMPTROLLER
                                                      10. ARMY PENTAGON
                                                   WASHINGTON   DC 20310-0109

                                                        1 5 JUL       1004
     MEMORANDUM FOR PROGRAM DIRECTOR, DEFENSE FINANCIAL AUDIT SERVICE,                                       DODIG.
     400 ARMY NAVY DRIVE, ARLINGTON, VIRGINIA, 22202-4704

     SUBJECT:       Draft Report on Department of Defense            (DoD) Antideficlency   Act (ADA) Reporting     and
     Disciplinary   Process (Project No. D2004FJ-0003)


             Reference subject draft, May 17, 2004.

             Concur with Recommendation A.4. The DoDIG recommends the Assistant Secretary of the
     Army (Financial Management and Comptroller) establish procedures to .ensure the timely review and
     processing of ADA cases. Specifically, establish deadlines for submitting cases to the Defense
     Comptroller,and justifydelays in submissionof cases.
             The Army acknowledges that ADA cases were not given adequate attention during the
     period of this audit, FYs 2002 and 2003, due to the fall-out of 9/11 and other contingency operations
     where Army missions and funding more than doubled. Active measures to implement improvements
     have already been taken. They are:

             a. Established ADA status as a metric in the Army-wide Joint Reconciliation Program.
     Commands not able to meet assigned processing deadlines must provide a detailed explanation
     with specific tlmelines for corrective action.

             b. Obtained primary ADA points of contacts at each major command to ensure proper
     oversight of          cases.
                  °"il°ing

             c. Establish deadlines for all delinquent cases and report monthly status to OSD(C).

            d. Schedules monthly meetings with specific major commands to discuss outstanding                     issues
     and address barriers preventing closure of delinquent cases.

            e. Actively partners with the Army General Counsel (OGC) to reduce processing time at
     Headquarters level. The OGC consistently reviews cases within one week of receipt; provides
     prompt legal advice; and fully participates in major command meetings and teleconferences.

            Since January 2004,     these combined efforts have resulted in Army submitting over 15 cases
     to OSD(C) (more than twice     the combined total in FYs 2002 and 2003). It is expected Army ADA
     cases, over one year old as    of October 1, 2003, will be submitted to OSD(C) by September 30,
     2004. Ali other active cases    are being closely monitored and expeditiously processed.

             My point of contact is Claire Nelson, (703)
                                                              693-3383. email:       Claire.Nelson@hqda.army.mil.




                                                 Pr1nlecl~        Rkyde4P1per




                                                             30
Department of the Navy Comments


                                 THE ASSISTANT             SECRETARY            THE NAVY
                                  (FINANCIAL   MANAGEMENT          AND     COMPTROLLER)
                                               1000      NAVY   PENTAGON
                                           WASHINGTON.          DC 20350-1000


                                                                                                       JUL 23 2004

     MEMORANDUM           FOR DEPARTMENT              OF DEFENSE             DEPUTY       INSPECTOR
                                   GENERAL        FOR AUDITING

     Subj:   DODIG DRAFT       AUDIT REPORT:              REPORT ON DOD ANTIDEFICIENCY                       ACT
             REPORTING      AND DISCIPLINARY                PROCESS          (PROJECT     NO. D2004FJ-0003)

     Ref:    (a) Draft DODIG Report D2004FJ-0003                of 17 May 04


     Encl: (I) Department of the Navy Response

             The Department of the Navy response to reference                 (a) is provided at enclosure   (I).   We
     do not concur with recommendations  A.I. and AJ.

        Other comments     related to the draft audit follow:

        .    Regarding    timeliness of reporting,
                                                   DODIG's calculations concerning processing time
             count time spent in OSD's review process against the Military Departments.     While the
             draft report later comments on these delays, representing them as part of the Military
             Department case process does not accurately portray the source of delay. The report
             states that {sic} "Specifically, the Navy's 43.1 months to complete ADA violation cases
             was the quickest of the three Military Departments," The 43.1 months includes
             preliminary ADA reviews. However, the I-year standard specified in the DoD Financial
             Management Regulation only applies to formal ADA investigations, not preliminary
             ADA reviews. There is no requirement for organizations to report preliminary reviews
             until they are completed. Thus, we are unable to verify the 12.3-month average
             processing time for preliminary reviews contained in the draft report. Additionally, the
             Department of the Navy's actual in-house processing time for formal investigations
             averaged only 20.1 months vice the 21.6 months stated in the report. Between FY 2002
             and FY 2003 the Navy reduced the average processing time by 28 percent. Below is a
             table of the 31 ADA cases that were forwarded to the OUSD(C) in FY 2002 and FY
             2003, and the number of months it took to process:



         FY 2002 ADA                                  FY 2003 ADA
          Workload                                       Workload
            Cases #           Processing                  Cases #                  Processing
           (19 total)       Time (Months)                (12 total)              Time (Months)
       98-01                      29              01-01                                31
       98-02                      33              01-02                                32
       98-04                      29              02-01                                17
       99-06                      29              02-02                                21




                                                                   31
Subj:     DODIG DRAFT AUDIT REPORT: REPORT ON DOD ANTIDEFICIENCY ACT
          REPORTING AND DlSCIPUNARY PROCESS (PROJECT NO. D2004FJ..oo(3)

        FY 2002ADA                                    FY 2003 ADA
  I
  I      Workload                                        Workload
      99"()9A                       27                02-04                             11
      99"()9B                       22                02-05                             13
      99..()9C                      27                02..()8                            9
      99..09D                     . 27                02-09                             14
      99-09E                        22                02-10                             11
      OO..()2                       31                02-11                             14
      00-03                         25                02-15                             13
      00..()4                       21                02-16                              8
      00-06                         23
      00-07                          18
      01-04                         19
      01-05                         16
      01-07                          13
      01-08                          16
      02-14                           2
                 Averaee            22.6                       Average                  16.2

      .   Regarding    the disciplinary
          Navy's perception
                                           process,
                              of the seriousness
                                                       OODiG       states
                                                    of A,ntideficiency
                                                                            that "Without
                                                                           Act violations,
                                                                                             an increase   in the
                                                                                            there is increased
          risk that personnel will misuse fund without thteat of J1IIDlshment; and the comparatively
          high number of ADA violations       in the Navy could continue."         The Department     oftbe
          Navy considers these violations     a serious matter.     In fact, in three cases (99-08, 00-05,
          and 02-14) co\'ered     by this report, Navy found an ADA violation and imposed diBciplinc
          but was overturned      by DoD General Counsel.    The report does not capture this fact.

          Further, the Department     of the Navy has no authority to discipline         retired civil servants,
          as the disciplinary aul.horities provided in Chapter 75, Title 5, United States Code, apply
          only to current employees.      In contrast, military members        are subject to recall to active
          duty for purposes of prosecution      under the Uniform Code of Military Justice (UCMJ).
          Article 134 of the UCMJ authorizes         prosecutions   for offenses prohibited      by the U.S.
          Code, and, if read broadly, could be interpreted        as authorizing    the recall of a member for
          prosecution  forviolating the ADA. However,   there are no reported                    prosecutions under
          the ADA during the Act's long history, nor has any court considered                     Article 134 as a
          vehicle to press charges under ADA.

          It must be recognized   that the agency is bound by the decision of its supervisors     and
          managers   with respect to the proper level of discipline for specific acts or offenses.    This
          is recognized   in case law. Decisions of the courts and responsible      regulatory    agencies
          have recognized     a number of factors that are relevant for consideration     in determining     the
          appropriateness    of a penalty. These are generally known as the "Douglas          factws",   and
          derive their name Iiom the decision of the Merit Systems Protection          Board in ~            v.
          Veteran Administration, 5 M.S.P.B 331 (1981). Without purporting to be exhaustive,
          those   gcnemlly   recognized     as relevant    include     the following:



                                                               2




                                                          32
Subj:     DOOlG DRAFT AUDIT REPORT: REPORT ON DOD ANTIDEFICIENCY ACT
          REPORTING AND DISCIPLINARY PROCESS (PROJECT NO. D2004FJ"()()()3)


          (I) The nature and seriousness         of the offense. and its relation to the employee's     duties,
          position, and responsibilities,      including whether the offense was intentional,       technical,
          inadvertent, committed       maliciously     or for gai~ or was frequently   repeated;



         (2) The employee's    job level and type of employment,    including                          supervisory       or fiduciary
         role, contacts with the public, and prominence   of the position;

         (3) The employee's           past disciplinary         record;

          (4) The employee's    past work record, including length of service,                         perfonnance           on the
         job, ability to get along with fellow workers, and dependability;

         (S) The effect of the offense upon the employee's   ability to perform at a satisfactory   level
         and its effect upon supervisor's confidence  in the employee's    ability to perform assigned
         duties;

         (6) Consistency         of the penalty with thO$\:imposed upon other employees for the same or
         similar offmses;

         (7) Consistency         of the penalty      with any applicable            agency    table of penaJties;

        (8) The notoriety         of the offense       or it.~ impact       upon the reputation      of the agency;

        (9) The clarity with which the employee was on notice of any rules that were violated                                         in
        committing    the offense, or had been wamed about the conduct in question;

        (10) Potential for the employee's               rehabilitation;

        (II)   Mitigating       circumstances        sWTounding         the offense     such as unusual         job tensions,
        personality     problems,      mental       impairment,       harassment,       or bad faith, malice        or p11>vocation
        on the part of others         involved      in the matter;         and

        (12) The adequacy and effectiveness of alternative sanctions to deter such conduct in the
        future by the employee or others.

      The Department  of the Navy's USe of the term "technical violation"  relates to the first
 Douglas factor cited above.   In other words, managers,  when determining    the appropriate
 penalty to impose in ADA violation CIISCS,are required by law and precedent      to consider
 whether       a violation      of the ADA       it technical     in nature      and weigh     its harm to the agency.

        Accordingly,         the subject   report    should     be modified       to ensure     consideration       of the
 foregoing issues.

                                                                                    ~-
                                                                                     DIONEL       M.    AVILES

                                                                  3




                                                                      33
                                    Department of the Navy
              Response to DODIG Draft Audit Report (Project No. D2004FJ-0003)
                  DoD Antideficiency Act Reporting and Disciplinary Process
                                     Dated May 17, 2004


Recommendation       A.I. We recommend that the Under Secretary of Defense
(Comptroller}/ChiefFlnancial     Officer revise the DoD Financial Management Regnlation,
Volume 14, "Administrative     Control of Appropriations   and Antideficiency Act Violation,"
October 2002, to require that the Military Departments submit preliminary review and
formal investigation reports to the Office of the Assistant Secretary (Financial
Management and Comptroller) at the time they are completed instead of waiting for the
reports to filter through the command chain.

Department ofthe Navy Response: Non-Concur. Preliminary ADA's are perfonned by the
activity where the potential violation occurred. By submitting the report through the chain of
command, the quality of the report and data provided is greatly improved before it reaches the
ASN(FM&C). The next echelon review ensures that sufficient data is provided to ensure the
conclusions or findings are properly documented and supported. Submission of preliminary
ADAs directly to the ASN(FM&C) would require fonnal return of the preliminaries to the
respective activities for additional infonnation when documentation was lacking or insufficient
to detennine if an ADA violation actually occurred. This would increase the processing time.

Recommendation     A.3. We recommend that the Assistant Secretaries of the Navy and Air
Force each issue a policy letter to lower level commands stressing the importance of
starting and completing preliminary ADA reviews and formal Investigations as soon as
possible, and in accordance with the DoD Financial Management Regulation. In
particular, the Navy needs to ensure that the assigned investigative officer is available to
perform the Investigation. The Air Force needs to ensure that its Major Commands assign
an Investigating Officer in a reasonable amount of time.

Department ofthe Navy Response: Non-Concur. We have already issued policy letters to
lower level commands stressing the importance ofcompletirig ADA investigations within the
required timeframes. Improvement has been evidenced by the reduction in overdue cases from
16 in FY 2001; 5 in FY 2002; 6 in FY 2003; and currently 3 overdue through June 2004. Lastly,
we were the only Department to complete any ADA cases (01-03, 02-08, 02-14, and 02-16)
within the nine-month timeframe. Our management and process improvement efforts with
respect to processing ADAs are showing positive perfonnance measurement results.




                                               34
  .
Department of the Air Force Comments


                                                 DEPARTMENT OF THE AIR FORCE
                                                                   WASHlHGTON,       DC




  Offtc. of 1M Anl.tomt Secretary
                                                                                                                 7 JUl 200t

          MEMORANDUM                   FOR ASSIST ANT INSPECTOR GENERAL FOR AtJDlTING
                                           OFFICE OF THE INSPECTOR GENERAL
                                           DEPARTMENT OF DEFENSE

          FROM:          SAFfFM
                         1130 Air Force Pentagon
                         Washington DC 20330-1130

          SUBJECT:               DoDIG Draft Report, "DoD Antideficiency Act Reporting and Dis<:i.plinary
                                 Process," May 17, 2004 (Project No. D2004FJ-0003)

                    This is in reply to your'memorandum                  requesting the Assistant Secretary  of the Air Force
          (Financial    Management     and Comptroller)              provide Air Force comments     on the subject repot1.

                      Recommendation      A.3, Concur.  I have reissued my memorandum          (attaclunent 2) to
          remind      lower-level  commands    of the importance    of completing    fonnal investigations, and have
          fut1her     emphasized   the need to assign investigating    officers in a timely manner (Action Closed).

                      Recommendation           A.S, Nonconcur         -
                                                                  Proposed alternative  action:  I do not have authority
          to direct    the Air Force       Office of the Staff Judge Advocate    or Ihe Office of the General Counsel to
          reduce and endorse lower-level                legal opinions or other legal services. However,   the Office oftbe
          General Counsel has agreed to                expedite their legal reviews and/or streamline  the legal review
          process where it is appropriate,              and I have worked, and will continue to work closely with the
          Office of the General Counsel               to that end. We continue to make much progress.       These actions
          are now closed.

                      Finally,     I take exception     to, and have commented            further   on some of the facts and
          statements       included     in the report    pmaining         to the Air Force.

                   Thank you for the opportunity    to comment on this report. My complete comments                            are at
          Attaclunent   I. If you have any questions    or require additional infonnation, please contact                      Mr.
          Bill Town,       SAFIFMPF,         (703)    695,0827,     DS~5-0827,townp@;'J)IIftta,gon.af.mil.




                                                                                    MICHAEL MONTELONGO
                                                                                    Assistant Secretary of the Air Force
                                                                                    (Financial Management and Comptroller)

         Attaelunent:
         I. Comments to DoDIG Draft Report
         2. SAFIFM Memo




                                                                  Financing rhe Flghr




                                                                               35
Final Report
 Reference




               DODIG DRAFT REPORTm DATED MAY 17,2004
               PROJECf NO. D2004FJ-0003

               "DoD Antideficiency        Act Reporting and Disciplinary Process"

               In order   for Ihe Air Force      to process   Antideficiency        Act (ADA)    violalions    in a more   timely   and
               effective manner, the DoDIG           recommended     the Assistant  Secretary         of Ihe Air Force     (Financial
               Management    and Comptroller)          take the fonowing   aetions~

               RECOMMENDATION             A.3: Issue a policy letter to lower-level commands   stressing the
               importance:  of $\ar\ing and completing    preliminary ADA reviews and formal investigations                         as
               soon as possible, and in accordance     with the DoD Financial Management     Regulation.   In
               particular, the Air Foree needs         to ensure   that its Major     Commands      assign    an Investigating
               Officer in a reasonable  amount          of time.

               AF RESPONSE:            Concur.

               Over 2 years ago I became concerned           about the amount of time it was taking to complete          formal
               investigations.     As a result, I sent a memorandum        (Subject: Timely Completion         and Submission
               of Antideficiency      Act Reports of Violation)     to OUTlower-level     commands     stressing the
               importance      Qf completing   formal investigatiQUS Qn time. In additiQn, I included and will
               continue tQ include. a copy of this memorandum            to every investigating    officer who conducts       a
               formal investigation.       As a result of this recommendation       I have revised my memorandum          to also
               stress the importance      of ilSliigning an investigating officer within IS busineas days after receipt of
               our direction   to begin    the investigation.   (Action Closed July 2004)


Redirected     RECOMMENDATION           A.S: Reduce lower-level legal opinions in ADA cases to no more than
               one, and allow the Secretary of the Air Foree Office of General Counsel to endorse lower-level
               legal opinions.

               AF RESPONSE:            Nonconcur.

               I do not have authority over the Air Force Office of the Staff Judge Advocate    or the Office of the
               General Counsel, so I cannot direct them to reduce/endorse    Iowc:r-Ievellegal opinions.    What I
               can do, and have done several times in the past, is to work more closely with the Office ofthe
               General Counsel to help expedite completion     ortega! reviews thaI, in my opinion, have taken too
               mueh time to be completed.    1 believe there has been much progress made in this area over the
               past few years to help reduce the overall time it takes to complete an investigation.

               1 realize that the performance     of multiple legal reviews and opinions may seem excessive,         but I
               do not agree that they add little or no value. On the contrary, eliminating         a legal review could be
               detrimental   to completing    an accurate formal investigation,    and have the effect of circumventing
               the "chain of command"       and a commander's      prerogative  for legal counsel.    Having said that, the
               Office of the General Counsel has agreed to expedite their legal reviews and/or streamline            the
               legal review process, providing      these measures do not improperly      circumvent    the chain of
               command     andlor diminish the quality of the reviews.




                                                                               36
OTHER COMMENTS:

The report states that the Air Force's 8 ADA investigations         reviewed and closed during FY 2002
and 2003 took an average of 49 months to investigate          and repon.   This is simply not true. While
the time taken was excessive    to the requirements,     those formal investigations    took 30 months on
average to complete   including   the preliminary    review time.

Concerning       preliminary     review time, it appears the DoDIG auditors may have mistakenly
assumed the 12-month time period for completing                 an ADA investigation       includes the
preliminary      review time. In fact, preliminary        reviews are separate from the formal ADA
irrvestigation     times. As stated in the FMR, preliminary           reviews are designed      to review the
circumstances        surrounding     a potential violation and are performed,     ".. .fI,"41ly within 90 days
(emphasis      added)."     As II result, neilher OUSD(C)       nor we considered    the 90 days II requirement,
and we do not include it in the 12-month requirement               to complete an ADA inveitigation.           In
addition, a thorough preliminary            ADA review can and does result in the need for fewer formal
investigations.       For example,      the Air Foree conducted     twice as many preliminary        reviews during
the same review period, which did not result in tbe need for formal investigations.                     Many of
these preliminary        reviews took far less then 90 days. Had these statistics been included in the
report, our average time would have been less than one-third of that reported.

The report states the Air Force took 10 months to be~n a fonnal investigation. After review of
our re<;:ards, to my knowledge, the Air Foree has never taken 10 months to start a formal
investigation.

Finally,   I was never   out-briefed   or afforded   the opportunity     to review    the auditor's     conclusions.
In the future, I would appreciate such consideration,           since   it would   resolve   many     of these issues
and result in a more accurate report.




                                                           37
.
Offt(;8 of Ih8 AMialanl $teM8ry
        Ml1.\ofORANDUM

        SUBJECT:




        REFERENCE:
                        Antideficiency
                                         DEPARTMENT OF THE AIR FORCE




                               FOR ALMAJCOM-FOA-DRU/CC

                        Deparlment     ofDefensc,

                        (project No. D2004FJ-0003)
                                                        WASHINGTON,     DC




                                                    Inspoctor General (DoDIG)
                                          Act Reporting


                           My 2 May 2002 Memo, "Timely
                           Act Reports of Violation"
                                                           and Disciplinary


                                                                  Completion
                                                                                   Draft Report, "DaD
                                                                            Process,"   17 May 2004


                                                                                 and Submission
                                                                                                                   '7




                                                                                                     of Antideficiency
                                                                                                                         JUt..   21104




                  The subject report criticized     the Air Force for taking too long to complete our fonnal
        Antidc:ficiency     Act (ADA) investigations      (Atch I). In addition, the report also stated that Major
        Commands        (MAJCOMs)      arc not assigning     an investigating     officer in a reasonable   amount of
        time. As a result, the report recommended           I issue a policy letter to lower.level       commands
        stressing the importance      of (I) starting and completing        preliminary     ADA reviews and fonnal
        investigations as soon as possible, and (2) ensuring that MAJCOMs assign an investigating
        officer in a reasonable     amount of time. Although I addressed             the timeliness  issue of completing
        formal investigations     in the referenced    memo, I did not address the latter. Therefore,          the
        following     information  is provided:

                  a. In accordance     with Department   of Defense 7000.14-R,      Financial Management
        Regulation     (FMR), Volume 14, Chapter S, paragraph       D, August 1995, fonnal investigations           of
        potential   violations  ofthe ADA, including the submission      of the final summary        report to the
        Office ofthe Under Secretary of Defense (Comptroller)          (OUSD(C»,        shall be completed     within
        nine months, regardless       ofthe scope of the event or amount of the potential violation.        Although
        this process has changed somewhat,         due to a recent OUSD(C)     policy, which now requires the
        Report of Violation to be forwarded        to my Deputy Assistant Secretary,       Financial Oporations
        (SAFIFMP),       before disciplinary  actions have been administered     (so the DoD General Counsel
        can review the report and confirm that a violation actually occurred before a responsible
        individual is disciplined), the point Is we still have only nine months, cumulative time, to
        complete thc fonnal investigation.

                b. In addition, Chapter 5, paragraph          D.I, of the FMR, states thai the applicable       Major
        Command        "shall assign an investigating    officer within 15 business days of the receipt ofthe
        request"      Specifically,  as soon as SAFIFMP        signs the memo directing   MAJCOMs         to begin the
       formal investigation, commanders have IS business days to Identify and appoint an investigating
       officer.    I realize that this may create a hardship, especially,      for those MAJCOMs        that have a
       large number of formal investigations          on-going at anyone     time; but, until otherwise     directed,
       this is stil1 a requirement.

                 c. Although    the DoDiG report also criticized the Air Force for taking too long to
       complete    preliminary    ADA reviews, Ihey mistakenly      included the amounl of time 10 complete
       the preliminary     ADA review as pan of the formal ADA investigation         process.   As a result, in my
       comments     to the report, I reminded     the DoDiG that (I) the preliminary   ADA review is separate
       from the formal investigation,      (2) the FMR does not require the preliminary       ADA review to be
       completed     in 90 days; rather, il states the review should be completed
                                                                                     "in a timely manner,


                                                     Financing   the Fight




                                                                 38
usually within 9Q days," and (3) the OUSD(C) Iw never monitored the Air Force in this 8re3
and, as a result, I have always been somewhat flexible on allowing the necessary time to
complete a thorough preliminary ADA review. Afterall, a thorough preliminary ADA review
can (and sbould) reduce the amount of time necessary to complete the formal investigation (if
necessary). Nevertheless, I urge all commanders to be prudent when performing preliminary
ADA reviews and to complete these reviews as soon as possible.

         Finally, the OUSD(C) has been very concerned about another, related ADA issue                         -
discipline! In fact, the main reason the OUSD(C) requested the subject audit was because he
was coneerned about the reluctancy of some commanders to administer any disciplinary actions
toward those individuals identified as responsible for the ADA violations. Although tbe DoDIG
did not criticize and/or make any recommendations to the Air Force in the subject report, I want
to emphasize that an ADA violation is a strious matter and we have an obligation to hold
violators accountable. More importantly, being strict with those who break the law may also
send the message to others that violating the ADA will not be tolerated and this. hopefully, will
discourage violatiom in the future.

           I am proud of what we have accomplished       together, thus far, and I am confident that we
can continue to work together to reduce the total cycle time to process formal Antidcficiency         Act
investigations,    to assign investigating officers within the required IS businells days, and to
administer    the appropriate  disciplinary   actions   toward     those individuals      who are identified       as
responsible    for ADA violationll,

       This memorandum supersedes thercferenced memo effective immediately. If you have
any questions, please contact my ADA action officer, Mr. Bill Town, (703) 695-0827, DSN 225.
0827, or towno«i!Denta~on.af.miJ.I appreciate your assistance.
                                                                      ."'(;.J..        -hi'    r
                                                                                                    -./. I
                                                                 MICHAEL MONTELONGO
                                                                 Assistant Secretary of the Air Force
                                                                 (Financial Management and Comptroller)

Attachment:
DoDIG Draft      Report,   17 May Q4



cc: ALMAJCOM.FOA.DRUIFM
    OUSD(C)




                                                         39
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service, prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed
to the report are listed below.

Paul J. Granetto
James L. Kornides
Mark Starinsky
Lisa S. Sherck
Amber M. Bell
Rebecca J. Thompson
Kelly E. Prillaman
